  October 12, 2006




Financial Management
Accounting for Department of the
Navy General Fund Accounts
Receivable
(D-2007-004)




                   Department of Defense
                  Office of Inspector General

                                    Constitution of
                                   the United States

      A Regular Statement of Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AR                    Accounts Receivable
DDRS-AFS              Defense Departmental Reporting System –Audited Financial
                         Statement
DFAS                  Defense Finance and Accounting Service
FACTS II              Federal Agencies Centralized Trial Balance System - Budgetary
FIAR                  Financial Improvement Audit Readiness
NAVSISA               Naval Supply Information Activity
NGF                   Navy General Fund
OIG                   Office of Inspector General
STARS                 Standard Accounting and Reporting System
STARS-FL              Standard Accounting and Reporting System-Field Level
TROR                  Treasury Report on Receivables
USSGL                 United States Standard General Ledger
                   Department of Defense Office of Inspector General

Report No. D-2007-004                                                    October 12, 2006
   (Project No. D2005-D000FC-0186.000)

           Accounting for Department of the Navy General Fund
                           Accounts Receivable

                                 Executive Summary

Who Should Read This Report and Why? Defense Finance and Accounting Service
(DFAS) management and personnel who are responsible for processing receivables,
reimbursables, and collections, should read this report, as should Navy Management. It
discusses the need to maintain an audit trail and the importance of being able to provide a
universe of Accounts Receivable transactions for the Department of the Navy General
Fund.
Background. DFAS Cleveland performs accounting functions including preparation of
financial statements for the Department of the Navy. The accounts receivable line on the
Navy General Fund (NGF) Balance Sheet is composed of varying components including
receivables, reimbursables, and collections. The Department of the Navy reported
$311,517,857,000 in assets on the FY 2005 Balance Sheet and the Accounts Receivable
balance was valued at $3,548,961,000 (including the Intragovernmental and Public
portions).

DFAS personnel use an Excel “import” spreadsheet application to compile a basic United
States Standard General Ledger (USSGL) trial balance that is subsequently imported into
the Defense Departmental Reporting System – Audited Financial Statements (DDRS-
AFS). The DDRS-AFS application standardizes the DoD departmental reporting process
and produces the quarterly departmental financial reports based on USSGL and standard
attributes. Our overall audit objective was to determine whether the Department of the
Navy and DFAS complied with applicable laws and regulations related to processing
receivables, reimbursables, and collections. Specifically, we attempted to test all types of
receivable, reimbursable, and collection transactions for compliance with established
guidance.

Results. DFAS Cleveland performed departmental level trading partner adjustments
valued $51.8 million that ultimately impacted the Mid-Year FY 2005 Balance Sheet.
However, DFAS provided insufficient documentation to support the adjustments or to
trace transaction amounts to source data. As a result, auditors were not able to verify
$51.8 million in trading partner adjustments to the accounts receivable balance sheet
amount. Inability to document adjustments and transaction amounts significantly impacts
the audit readiness of Accounts Receivable. DFAS Cleveland should fully document the
processes used to make trading partner adjustments. See finding A for the detailed
recommendation.

DFAS Cleveland could not support $449,133,195 reported on the Treasury Report on
Receivables Due from the Public (TROR) and supported the remaining report balance
with reproduced documentation rather than the authentic source documentation Navy
used during report preparation. DFAS Cleveland reported $3,010,743,438 due from the
public on the March 31, 2005 TROR. DFAS uses the TROR to prepare Navy financial
statements. The receivable amounts reported on the TROR must reconcile with the NGF
financial statements. If DFAS Cleveland does not have records that support the amount
reported on the TROR, then NGF financial statement amounts would also be
unsupported. The lack of controls increases the risk of errors. DFAS Cleveland needs to
establish controls to ensure that all support documents are properly maintained and
controlled. See finding B for the detailed recommendations.

DFAS Accountants in coordination with the Naval Supply Information Systems Activity
(NAVSISA) were not able to provide a timely universe of Accounts Receivable
transactions as of March 31, 2005. Our initial request for a universe of receivable
transactions from STARS-Field Level (STARS-FL) was made on July 7, 2005. We had
not received a universe by January 9, 2006. DFAS did not provide us a universe of
transactions because DFAS accountants and the STARS Project Management Office
were uncertain of what comprises a universe. The inability to timely extract a universe
from STARS-FL impedes the auditability of AR transactions. See finding C for the
detailed recommendation.

Management Comments and Audit Response. DFAS concurred with three of the
recommendations and concurred in principle with six other recommendations and states it
will revise its Standard Operating Procedures for the General Fund and TROR to ensure
that source documentation is properly maintained. DFAS also states that audit trails will
not be available while it is using legacy accounting systems and that the DoD business
transformation effort that is projected to be completed around 2011 will provide solutions
for the findings identified in this report. We consider the comment unresponsive and
disagree with the DFAS assertion that our recommendations should be addressed to the
Navy. Because these findings and recommendations relate to accounting issues, they are
addressed to DFAS, the accountant for the Navy. DFAS may coordinate with the Navy
in its response. We request that DFAS provide comments on the final report by
December 13, 2006. See the Finding section of the report for a discussion of DFAS
comments and audit response and the Management Comments section for the complete
text of comments.




                                            ii
Table of Contents

Executive Summary                                                  i

Background                                                         1

Objective                                                          2

Review of Internal Controls                                        3

Findings
     A. Supporting Adjustments for Trading Partner Transactions    5
     B. Maintaining Adequate Audit Trails                         10
     C. Universe of Account Receivable Transactions               13

Appendixes
     A. Scope and Methodology                                     17
         Prior Coverage                                           18
     B Report Distribution                                        19

Management Comments
     Defense Finance and Accounting Service Cleveland             21
Background
          The Defense Finance and Accounting Service (DFAS) provides accounting
          services for the Department of Defense. The Defense Departmental Reporting
          System-Audited Financial Statements (DDRS-AFS) Division at DFAS Cleveland
          prepares the Department of the Navy financial statements. DDRS AFS performs
          its function at the summary level, integrating many processes in recording,
          maintaining and tracking accounts receivable through the Navy General Fund
          Division at DFAS Cleveland. The accounts receivable line on the Navy General
          Fund (NGF) Balance Sheet is composed of varying components including
          receivables, reimbursables, and collections. Accounts Receivable (AR) include,
          but are not limited to, money due for sale of goods and services and other events
          creating indebtedness to the DoD. Uncollected amounts earned from reimbursable
          sales (reimbursables) are recorded as accounts receivable. Nonentity receivables
          include Government receipts and collections (collections) arising from the
          sovereign and regulatory powers unique to the Federal Government.
          Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
          Memorandum, “Financial Improvement Initiative Business Rules,” dated June 23,
          2004, requires that during validation transaction records should be available. The
          Department of Defense Office of Inspector General defined “availability” in
          “Auditor Access for Financial Statement Audits,” dated January 24, 2005, to mean
          that supporting documentation should be provided to the auditors within 2 working
          days. The memorandum further establishes that if an entity needs more than 2
          days to provide the requested data, then Office of the Inspector General and DoD
          reporting entity points of contact will coordinate an acceptable turnaround time for
          providing the documents to the auditors.

          We did not intend to perform a financial statement review of the AR line during
          this audit. However, while completing our work we identified several issues that
          impact the auditability of the line. In consideration of the issues related to
          auditability, we reviewed the Office of Under Secretary of Defense (Comptroller) /
          Chief Financial Officer Financial Improvement Audit Readiness (FIAR) Plan,
          dated December 2005, and the DFAS Strategic Plan, developed in September
          2004, and identified the following management goals related to the NGF AR line:

                   •   The FIAR states that the NGF Balance Sheet accounts receivable line
                       will be ready for validation and submission of an assertion package to
                       the Executive Steering Committee 1 on September 30, 2007.

                    • The DFAS Strategic Plan includes a strategic target, “To Receive an
                      Unqualified Audit Opinion on the FY 2007 Financial Statements.”

           Navy General Fund: The Department of the Navy reported $311,517,857,000
           in assets on the FY 2005 Balance Sheet and the AR balance was valued at
           $3,548,961,000 (including the Intragovernmental and Public portions). Accounts
1
    The Department of Defense Financial Improvement Executive Steering Committee reviews the assertion
    package to make sure the Component is presenting an assertion that will likely pass the scrutiny of an
    independent audit.



                                                      1
    Receivable transactions are processed at DFAS Cleveland and at the following
    operating locations: Charleston, South Carolina; Norfolk, Virginia; Oakland,
    California; Pearl Harbor, Hawaii; Yokota, Japan; Pensacola, Florida; and San
    Diego, California.

    Defense Departmental Reporting System-Audited Financial Statements
    Module. DDRS-AFS system module is a DoD computer application that
    facilitates the preparation of all DoD Audited Financial Statements, management
    reports, Required Supplementary Information reports, and trend analysis reports.
    It standardizes the DoD departmental reporting process and produces the
    quarterly departmental financial report based on USSGL and standard attributes.
    The DDRS-AFS application is revised quarterly to accommodate financial
    reporting to the Office of the Under Secretary of Defense. In addition, the
    DDRS-AFS application provides the required reconciliation within and between
    reports, as established by Office of the Under Secretary of Defense.

    Preparation of the Navy General Fund Financial Statement. The Audited
    Financial Statements branch of the DFAS Cleveland Corporate Initiatives
    Division received several departmental level reports that were produced by the
    General Fund Division. The reports include the Report on Budget Execution (SF
    133), Federal Agencies Centralized Trial Balance System - Budgetary (FACTS
    II), and Treasury Report on Receivables (TROR), all used to prepare financial
    statements. DFAS personnel use an Excel “import” spreadsheet to compile a
    basic United States Standard General Ledger (USSGL) trial balance that is
    subsequently imported into the DDRS-AFS. After the spreadsheet process is
    complete, the majority of the remaining financial data is obtained by data calls
    from various sources and entered into DDRS-AFS by journal voucher to complete
    the financial statements. The following figure shows the flow of financial
    statement information from the departmental level reports through the DDRS-
    AFS and to the NGF financial statements.


            SF 133
                              Excel
                              “Import”
                              Spreadsheets
                                                 DDRS -          Financial
            FACTS II                             Application     Statements
                              Treasury
                              Report on
                              Receivables
                                                 JVs from Data
                                                 Call & Other
                                                 Sources




Objective
    Our overall audit objective was to determine whether the Department of the Navy
    and DFAS complied with applicable laws and regulations related to the
    processing of receivables, reimbursables, and collections. Specifically, we

                                             2
           attempted to test all types of receivable, reimbursable, and collection transactions
           for compliance with established guidance. In order to accomplish our audit
           objective we needed to obtain a universe of transactions to test. We were not able
           to obtain a universe of transactions by the established deadline. As a result, we
           were not able to achieve the principal audit objective. We reviewed the internal
           control program as it related to the audit objective. See Appendix A for a
           discussion of the scope and methodology, and a discussion of prior coverage
           related to the objectives.


Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” and DoD
           Instruction 5010.40, “Management Control (MC) Program Procedures,” require
           DoD organizations to implement a comprehensive system of management
           controls that provides reasonable assurance that programs are operating as
           intended and to evaluate the adequacy of the controls. 2

           Scope of the Review of the Internal Control Program. We assessed the
           adequacy of DFAS Cleveland internal control over procedures to collect, adjust,
           reconcile, and report the AR balance within the Mid-year FY 2005 NGF Financial
           Statements. Specifically, we reviewed the trading partner elimination process and
           TROR reporting process. We also assessed management’s self-evaluation of
           those controls.

           Adequacy of Internal Control. We identified material internal control
           weaknesses at DFAS Cleveland Center, as defined by DoD Instruction 5010.40.
           Because of inadequate accounting systems, adjustments made by DFAS
           Cleveland to match buyer-side data and seller-side data could not be supported
           (see finding A). This internal control weakness has been acknowledged by the
           Assistant Secretary of the Navy (Financial Management and Comptroller) in a
           management representation letter for the FY 2005 NGF Financial Statement.
           Because of the insufficient internal controls, DFAS was unable to ensure that all
           the supporting documentation for the TROR was adequately retained (see finding
           B). Also, DFAS inability to provide a timely universe will impede a financial
           audit and other valid audit testing of the AR line (see finding C).

           The control weaknesses identified and our recommendations for improvements
           are discussed in the Finding section. Our recommendations, if implemented, will
           improve controls over the trading partner elimination process, the TROR
           reporting process, and the ability to provide a universe of receivable transactions
           for the NGF. A copy of this report will be provided to the senior official
           responsible for internal controls in DFAS Cleveland and the Naval Supply
           Information Systems Activity.


2
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control Program
    Procedures,” August 28, 1996. DoD Instruction 5010.40, “Managers’ Internal Control Program,” was
    reissued on January 4, 2006 and DoD Directive 5010.38 has been canceled.



                                                    3
Adequacy of Management’s Self-Evaluation. DFAS Cleveland’s self-
evaluation was not complete. DFAS Cleveland did not identify the process for
collecting, adjusting, reconciling, and reporting trading partner elimination and
TROR within its assessable units and, therefore, did not identify or report the
material internal control weaknesses that the audit identified.




                                     4
                    A. Supporting Adjustments for Trading
                       Partner Transactions
                    DFAS Cleveland performed departmental level trading partner
                    adjustments valued $51.8 million that ultimately impacted the Mid-Year
                    FY 2005 Balance Sheet. However, DFAS provided insufficient
                    documentation to support the adjustments or to trace transaction amounts
                    to source data. As a result, auditors were not able to verify $51.8 million
                    in trading partner adjustments to the accounts receivable balance sheet
                    amount. Inability to document adjustments and transaction amounts
                    significantly impacts the audit readiness of Accounts Receivable.


Guidance
           Audit Trail Guidance. DoD regulation 7000.14-R, Volume 1, Chapter 3, Key
           Accounting Requirement Number 8, states that audit trails should allow a
           transaction to be traced from initiation through processing to financial reports. A
           key test of the adequacy of an audit trail is whether tracing the transaction
           forward from the source or back from the result will permit verification of the
           amount recorded or reported. DoD Regulation 7000.14-R, volume 6, chapter 2,
           Section 020203 requires DoD Components to ensure that audit trails are
           maintained in sufficient detail to permit tracing of transactions from their sources
           until their transmission to DFAS. In addition, DFAS Regulation 7900.4G,
           Chapter 14, “Audit Trail and System Control,” requires that all transactions,
           including computer-generated computations, be traceable to individual source
           records.

           Adjustment and Elimination Guidance. DoD regulation 7000.14-R, Volume
           6B, Chapter 13, “Adjustments, Eliminations, and Other Special
           Intragovernmental Reconciliation Procedures,” Section 130201, requires that the
           corresponding amounts reported by the buyer must be adjusted to match the seller
           records. 3 Any allocation method used must be documented and appropriate
           documentation must be maintained.


Trading Partner Adjustments
           Adjustments to Match Seller-Side Information. Generally, DFAS systems do
           not capture buyer-side records that would enable a detailed reconciliation of the
           trading partner elimination process. As a result, DFAS followed guidance in DoD
           Regulation 7000.14-R, Section 130201, which requires that the buyer-side
           information be adjusted to match the seller-side information. DFAS Cleveland

3
    Trading Partner adjustments relate to intragovernmental transactions. These transactions occur between
    Government agencies with one agency being the buyer and the other agency the seller. The transactions
    are subject to elimination entries to remove the effects of intragovernmental transactions from the
    Balance Sheet.



                                                      5
           captured Navy seller-side elimination data using reimbursable work orders.
           These data are extracted from Standard Accounting Reporting System (STARS)
           Field Level and STARS Headquarters Command Level modules. Additionally,
           reimbursable work order data are obtained by data call from the Bureau of Naval
           Personnel, Naval Air Systems Command Enterprise Resource Planning and
           National Defense Sealift Fund. For the FY 2005 Mid-year Financial Statements,
           DFAS Cleveland made 12 adjustments, valued at $48,998,204, to match buyer-
           side data with seller-side data.

           DFAS Cleveland provided 23 e-mails, 35 spreadsheet files, 3 text files, 3 database
           files, and 272 journal voucher entries as supporting documentation for trading
           partner adjustments. The support provided included eight adjustments totaling
           $5,467,845 that were attributed to waived entities. 4 DFAS told auditors they
           made the remaining adjustments to match buyer-side data with seller-side data.
           Although DFAS Cleveland provided a data file to support trading partner
           adjustments, these data files did not adequately identify how amounts were used
           to prepare the adjustments. Instead, supporting spreadsheets contained
           nonspecific amounts and lacked details necessary, such as titles, sources, and
           totals for auditors to trace the data.
           Additional Trading Partner Adjustments. After DFAS Cleveland made the
           departmental level seller-side adjustments that ultimately impacted DDRS-AFS,
           they posted a second set of adjustments totaling $2,850,864. DFAS Cleveland
           accountants could not support those adjustments. When asked about the purpose
           of these adjustments, DFAS stated it was to adjust for differences that reflected
           accounts balance attribution to the proper trading partner USSGL accounts.
           DFAS must be able to fully support all adjustments. In other words, DFAS
           Cleveland should be able to clearly identify the source of seller data that required
           the matching adjustment. Once it identifies the location at which adjustments are
           made, auditors can go to those activities to obtain the necessary supporting
           documentation.

           We requested that DFAS Cleveland accounting personnel provide supporting
           documentation for all trading partner adjustments or identify source transactions
           supporting seller-side amounts. DFAS personnel indicated that each adjustment
           might comprise thousands or millions of transactions, and it would not be possible
           for them to provide the support documents. We recognize that DoD regulation
           7000.14-R Section 130201 requires that the corresponding amounts reported by
           the buyer should be adjusted to match the seller records. However, Regulation
           7000.14-R Section 130401 also states that appropriate documentation should be
           maintained for these allocation based adjustments. DFAS Cleveland needs to be
           able to identify sources of all financial data to enable auditors ultimately to test
           transactions impacting financial statements.




4
    Waived entities are agencies that do business with the Department of Defense that DFAS Arlington
    deems to have more reliable financial information. Because the waived entities have better data, DFAS
    Arlington sends a list of waived entities to DFAS Cleveland notifying them to use the numbers provided
    by the identified waived entities.


                                                      6
     Under current processes DFAS is unable to sufficiently provide data to identify
     transactions that make up reported balances. DFAS Cleveland needs to put in
     place internal controls to clearly reconcile amounts reported on financial
     statements to detailed transactions in accounting systems.


Unreliable Reporting of Trading Partner Transactions
     DoD Regulation 7000.14-R, volume 1, chapter 3, “Accounting Systems
     Conformance, Evaluation, and Reporting,” Key Accounting Requirement No. 8,
     states that a key test of the adequacy of an audit trail is whether tracing the
     transaction forward from the source or back from the result will permit
     verification of the amount recorded or reported. In addition, Defense Finance and
     Accounting Service Guide 7900.4G, Chapter 14, “Audit Trail and System
     Control,” dated November 2004, requires all transactions, including computer-
     generated computations, must be traceable to individual source records. DFAS
     Cleveland reported making 14 adjustments to the departmental level general
     ledger accounts as a result of trading partner transactions. However, DFAS
     Cleveland did not identify a complete audit trail for departmental level
     adjustments, totaling $51.8 million, in trading partner transactions that ultimately
     impacted the reported Mid-year FY 2005 NGF Financial Statements. Because
     audit trails were not available, we were unable to determine whether the
     adjustments made by DFAS were supported and valid.
     Timely Submission of Support Documentation. Subsequent to the completion
     of our audit, DFAS Cleveland indicated that it might be possible for them to
     provide transaction based data to support the Trading Partner adjustments. DFAS
     also provided a memorandum listing approved waived entities and an example of
     supporting documentation showing the amount to be adjusted. We acknowledged
     these were the types of documentary support we were looking for during our
     audit. DFAS Cleveland needs to formalize the process in which they make and
     support Trading Partner adjustments. Complete and detailed records must be
     maintained and readily available.




Recommendations, Management Comments, and Audit
  Response
     A. We recommend that the Director, Defense Finance and Accounting
     Service Cleveland fully document the processes used to make trading partner
     adjustments. Specifically, Defense Finance and Accounting Service
     Cleveland should:

            1. Develop specific controls, in current and future accounting
     systems, to ensure that all changes to accounting data, regardless of origin,
     are properly documented, and that financial data are easily identified with a
     source activity.


                                          7
Management Comments. The DFAS Cleveland Central Site Director concurred
in principle, stating that DFAS Cleveland Accounting Operations, General Fund
AFS, provided the auditors with data that were used to gather and summarize
accounts receivable elimination data. The Director stated that one adjustment
mentioned was an entry made in error that was corrected and subsequently
documented in DDRS-AFS. Although the remaining adjustments may not be
specifically identifiable to individual source transactions, DFAS stated that, under
the current legacy system environment, they have properly documented trading
partner adjustments. DFAS gives an approximate completion date of Fiscal Year
2011 when the Navy Enterprise Resource Planning will be established and
indicates that future accounting systems must be able to provide an audit trail
from source transactions to the financial statement line items. Furthermore,
DFAS suggested that this recommendation should be addressed to the Navy since
the Navy plays an active role in ensuring that future accounting systems
(Enterprise Resource Planning) will provide complete audit trails.
Audit Response. The Defense Finance and Accounting Service Cleveland
Central Site Director’s comments were partially responsive. We are aware of the
Trading Partner requirements in DoD Regulation 7000.14-R, specifically, the
requirement that Defense Finance and Accounting Service use the amounts
provided by waived entities. We acknowledge that support was provided for the
eliminations. While we were performing our audit work we requested an
explanation as to which documents supported which adjustment and how amounts
adjusted were calculated. Defense Finance and Accounting Service provided
adjustment data; however, it did not specifically explain or support identified
journal vouchers. We were unable to determine the reason for or support the
adjustments using the documentation provided. We understand the limitations of
the legacy accounting systems but again recommend that Defense Finance and
Accounting Service develop a control to document the processes used to make
trading partner adjustments prior to the implementation of Navy Enterprise
Resource Planning systems. Having these procedures in place before new Navy
systems are implemented will provide a higher level of internal control when the
transition is made. We request that DFAS reconsider its position and provide
comments on the final report.

       2. Improve record keeping and audit trails, especially for Trading
Partner adjustments, and ensure that accountants understand adjustment
amounts and can readily identify activities that maintain source documents,
thereby helping to comply with guidance in the Office of the Under Secretary
of Defense (Comptroller)/Chief Financial Officer’s memorandum “Financial
Improvement Initiative Business Rules.”

Management Comments. The Defense Finance and Accounting Service
Cleveland Central Site Director concurred in principle, stating that Defense
Finance and Accounting Service Cleveland maintains an audit trail history of the
Trading Partner process on Defense Finance and Accounting Service Shared
Drive, which is backed up to disk. The accountant tasked with the elimination
process also maintains hard copy details of the process for each quarter.

Defense Finance and Accounting Service Cleveland agrees that financial data
should readily identify activities that maintain source documents; however, legacy


                                     8
accounting systems prevent easy identification of source documentation. DFAS
further stated that the Department of Defense business transformation effort
(under the Business Enterprise Information System umbrella) will support record
keeping and improve audit trails in future accounting systems. The Navy is also
transitioning from legacy accounting systems to Enterprise Resource Planning
systems. Therefore, the Director suggested that this recommendation be
addressed to the Navy because the Navy plays an active role in ensuring that
future accounting systems maintain proper records and provide complete audit
trails.

The Navy projects that Navy Enterprise Resource Planning systems will be
completed around FY 2011; however, the final completion date will be affected
by implementation of the DoD Business Enterprise Information System.

Audit Response. The Director’s comments were partially responsive. We
acknowledge that DFAS maintains documentation but the support needs to be
organized so that it provides an explanation of the adjustments. We agree that
DFAS can compensate by analyzing the summary data. If DFAS implements the
compensating control over summary data analysis in coordination with the field
sites and Navy activities, the completion date for this recommendation will not
remain dependent on the transition to Navy Enterprise Resource Planning
systems. No further comments are required.




                                   9
           B. Maintaining Adequate Audit Trails
           DFAS Cleveland could not support $449,133,195 reported on the Treasury
           Report on Receivables Due from the Public (TROR) and supported the
           remaining report balance with reproduced documentation rather than the
           authentic source documentation Navy used during report preparation.
           DFAS Cleveland reported $3,010,743,438 due from the public on the
           March 31, 2005, TROR. DFAS uses the TROR to prepare Navy financial
           statements. Receivable amounts reported on the TROR must reconcile
           with the NGF financial statements. For the same reason that DFAS
           Cleveland was not able to support the amount reported on the TROR,
           NGF financial statement amounts may also be unsupported. The amounts
           are unsupported because DFAS Cleveland did not establish controls to
           ensure that all support documents were properly maintained and
           controlled. As a result, the amounts reported on the FY 2005 TROR could
           not be verified, and the lack of controls increased the risk of errors.


Unavailable Records
    The TROR is the Department of the Treasury’s means for periodically collecting
    data on the status and condition of the Federal Government’s non-tax debt
    portfolio, in accordance with the requirements of the Debt Collection Act of 1982
    and the Debt Collection Improvement Act of 1996. The TROR is used to provide
    the aging status of public receivables to the Treasury. It also is used as a tool in
    reconciling Navy Financial Statements. The FY 2005 Second Quarter TROR
    prepared by DFAS Cleveland showed the ending balance amount of
    $3,010,743,438. The following sums comprise the AR balance.

       •   $2,555,903,729 contractor AR reported off-line by the Contractor Debt
           System
       •   $2,380,058 reported by the Mechanization of Contract Administration
           Service System

       •   $3,326,456 reported by the Defense Civilian Pay System

       •   $449,133,195 from appropriation-level reports.

    DFAS Cleveland used Excel spreadsheet files provided by the Departmental
    Reporting Procurement Branch to support debt amounts from three automated
    system extracts (Contractor Debt System, Mechanization of Contract
    Administration Service System, and the Defense Civilian Pay System). Using
    Excel spreadsheets instead of obtaining the data directly from the automated
    systems does not provide actual support and allows for the potential of manual




                                         10
           errors. Although the system extract amounts due from the public were originally
           reported on the DFAS e-Portal 5 by Navy field activities, DFAS Cleveland
           accountants used a spreadsheet that estimated the NGF activity (that is, Index 17
           classification) and removed amounts for other indexes. This procedure increases
           the risk that data might be different from original financial applications because
           of missing data or mistakes.

           DFAS Cleveland accountants created the NGF TROR using input from
           appropriation level reports and the three system extracts. When we requested that
           DFAS Cleveland personnel provide the supporting documentation used to prepare
           the summary TROR, they were unable to provide the source binder. Some
           portions were re-created but the original work was not available for review.
           Source records, including computer-generated computations, must be traceable
           and adequately maintained. DFAS should implement controls related to record
           retention to ensure supporting documentation is retained. This lack of adequate
           internal control is material.

Controlling Records
           Because DFAS did not adequately safeguard documents, the auditability and
           reliability of the March 31, 2005, TROR report was diminished. DFAS was
           unable to provide any records to support $449,133,195 from appropriation-level
           submissions. DFAS personnel were able to re-create records that consisted of
           three spreadsheets to support $2,561,610,243. The spreadsheets did not clearly
           identify their source but DFAS Cleveland accountants said they represented
           Contractor Debt System, Mechanization of Contract Administration Service
           System, and Defense Civilian Pay System data for the NGF. Auditors could not
           verify that the spreadsheet file DFAS provided was unaltered from the original
           source documents or that the re-created file DFAS provided was the same that
           DFAS used to prepare the TROR. The safeguarding of records is specifically
           discussed in the following regulations:

               •    Office of the Under Secretary of Defense (Comptroller) “Financial
                    Improvement Initiative Business Rules,” dated June 23, 2004, requires
                    that records be reconciled and available. Specifically, management should
                    document processes, identify controls and systems, and ensure that an
                    auditable universe of transactions and supporting documentation is readily
                    available.

               •    DoD regulation 7000.14-R, volume 6A chapter 2, “Financial Reports
                    Roles and Responsibilities,” Section 020203, requires that supporting
                    documents or images of supporting documents should be retained by the
                    organization that translates the information into an electronic mode.



5
    The e-Portal is the DFAS integrated environment for accessing information, conducting business, and
    managing operations. During the course of our audit we were told the e-Portal contained varied reports
    including the TROR and data from sources such as Contractor Debt System, Mechanization of Contract
    Administration Service System, and Defense Civilian Pay System.



                                                     11
       •   DFAS Regulation 7900.4G, chapter 14, “Audit Trails and System
           Controls,” requires that all transactions, including computer-generated
           computations, must be traceable to individual source records.


Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Director, Defense Finance and Accounting
    Service Cleveland:

           1. Implement internal control procedures to ensure record retention
    of documents that provide the audit trail to Treasury Report on Receivables
    reported amounts.

           2. Include written controls in Standard Operating Procedures to
    ensure source documentation is maintained and safeguarded. Where
    appropriate, backups of electronic data should be archived.

           3. Develop processes to enable Defense Finance and Accounting
    Service Cleveland to comply with the Department of Defense Regulation
    7000.14-R, volume 6A chapter 2 section 020203, Defense Finance and
    Accounting Service Regulation 7900.4G, chapter 14, and Office of the Under
    Secretary of Defense (Comptroller) “Financial Improvement Initiative
    Business Rules.” Specifically, this regulation discusses the ability to provide
    an auditable universe of transactions and that supporting documentation
    must be made available.

    Management Comments. The Defense Finance and Accounting Service Central
    Site Director concurred and stated that Defense Finance and Accounting Service
    would revise the Standard Operating Procedures for the General Fund Treasury
    Report on Receivables to ensure that source documentation is properly
    maintained. The Director further stated that the Department of Defense business
    transformation effort (under the Business Enterprise Information System
    umbrella) will support the improvement of audit trails in future accounting
    systems as the Navy transitions from legacy accounting systems to Enterprise
    Resource Planning. The Director suggested that this recommendation be
    addressed to the Navy because the Navy plays an active role in ensuring that
    future accounting systems maintain proper records and provide complete audit
    trails.

    The Standard Operating Procedures on the Treasury Report on Receivables for
    the current legacy system operating environment will be updated by December 1,
    2006. However, the final completion date will be determined by the
    implementation of the Business Enterprise Information System.

    Audit Response. The recommendation is addressed to Defense Finance and
    Accounting Service because Defense Finance and Accounting Service is the Navy
    accountant. Defense Finance and Accounting Service may wish to coordinate
    with the Navy in its response to the final report.

                                       12
            C. Universe of Account Receivable
               Transactions
            DFAS Accountants in coordination with the Naval Supply Information
            Systems Activity (NAVSISA) were not able to provide a timely universe
            of AR transactions as of March 31, 2005. Our initial request for a
            universe of receivable transactions from STARS-FL was made on July 7,
            2005. We had not received a universe by January 9, 2006. DFAS did not
            provide us a universe of transactions because DFAS accountants and the
            STARS Project Management Office were uncertain of what comprises a
            universe. The inability to timely extract a universe from STARS-FL
            impedes the auditability of AR transactions.


Universe of Transactions
     The FY 2005 Navy General Fund Balance Sheet for AR line reported
     $3,548,961,000. AR includes receivables, reimbursables, and collections
     processed through the Navy STARS accounting system. Our audit objective did
     not include performing an AR line financial statement review. However, we
     determined that the best way to test for compliance of specific transactions, an
     announced audit objective, would be to obtain a universe of transactions and
     select a statistical sample. When auditors requested a universe to support the AR
     balance, DFAS asked auditors to explain what a universe would include. The
     ability to identify and provide a universe is an essential part of financial statement
     audits and is required to test transactions for compliance. According to current
     business rules, asserting entities must be able to provide detailed transaction level
     activity that comprises the balance being reported. While the Navy and DFAS
     have not asserted audit readiness for accounts receivable, a realistic understanding
     of the current environment is needed. A complete universe of receivable
     transactions would be reconcilable to the amount reported on the balance sheet
     thereby verifying all transactions were reported. The inability to provide a
     universe not only impeded accomplishment of our audit objective but also
     impedes a financial audit of the AR line and other valid audits.


STARS-FL Environment
     DFAS Cleveland was not able to identify and reconcile what transactions within
     STARS-FL supported the AR amount reported on the mid-year balance sheet.
     DoD OIG auditors and the STARS Project Management Office personnel
     exchanged information in formal meetings, phone calls, and e-mail, in an effort to
     establish what transactional STARS-FL data should be part of an AR universe. It
     is the responsibility of DFAS to identify what information STARS-FL contains
     and how it relates to the amounts reported on the NGF Financial Statements.




                                          13
     DFAS inability to define and provide a universe of transactions significantly
     impacts the auditability of AR contrary to DoD and the Navy’s audit readiness
     plan.

     The NGF AR line is listed in the Financial Improvement Audit Readiness Plan as
     ready for validation, with plans to submit an assertion package to the Executive
     Steering Committee on September 30, 2007. According to the FIAR Business
     Rules, at the time the assertion is submitted management should be able to
     provide sufficient audit ready evidential matter to support all transactions and
     adjustments and be able to provide documentation to auditors upon request.
     DFAS and the Navy have much to accomplish if they are going to meet these
     established goals.

Request for a Universe of Transactions
     On July 7, 2005, auditors requested a universe of all receivable transactions from
     STARS-FL that were recorded as of March 31, 2005. DFAS did not provide a
     universe as of January 9, 2006. DFAS Cleveland’s STARS Project Management
     Office and NAVSISA should be able to provide a complete transaction record and
     show how the amount extracted from the STARS-FL system reconciles to the AR
     amount reported on the Balance Sheet. When the initial request was made for a
     universe of transactions, the Audit Liaison did not initially send us to the STARS
     group. After a meeting with the DDRS-AFS area, DFAS determined that the
     STARS Project Management Office would be the best source for a transaction
     based universe. The STARS Project Management Office asserted that STARS-
     FL should contain all receivable transactions. The STARS Project Management
     Office had 6 months to answer the auditors’ request but did not provide the
     universe of data requested of them by the established deadline. A task order to
     extract the data was prepared on August 8, 2005, approximately 1 month after the
     initial request. When auditors were informed the task order was complete (after
     the 6 month deadline) DFAS still did not assert that the full universe was
     provided.


Summary
     The inability to timely extract a universe from STARS-FL impedes auditability of
     AR transactions. Inability to extract a universe in 6 months is unacceptable.
     STARS is described as a real-time accounting system which provides for
     processing and reporting of general fund accounting functions for the Navy. In
     order for financial statements to be audited, the transactions that make up their
     balances must be identified. The universe of transactions should be reconciled to
     the amount reported to ensure it is complete. The FIAR Plan has the NGF AR
     line scheduled for assertion on September 30, 2007. As stated in the Financial
     Improvement Business Rules, DFAS should be able to provide sufficient audit-
     ready evidential matter to support all transactions when ready for assertion.
     Supporting documentation should be promptly provided to auditors upon request.




                                         14
    Because DFAS was not able to provide the universe of transactions by the
    established deadline, auditors were not able to perform tests on the source
    records.

    Department of the Navy and DFAS should re-examine the status of the AR line in
    an effort to understand the auditability issues such as defining and reconciling a
    universe of transactions and maintaining proper support for those transactions.

Recommendations, Management Comments, and Audit
  Response
    C. We recommend that the Director, Defense Finance and Accounting
    Service Cleveland in coordination with the Director, Naval Supply
    Information Systems Activity develop a methodology to obtain a universe of
    accounts receivable transactions that supports the Accounts Receivable
    amounts reported on the Balance Sheet. Specifically, Defense Finance and
    Accounting Service and Naval Supply Information Systems Activity need to:

           1. Define the transaction level data that support the accounts
    receivable balance reported on the Department of the Navy Balance Sheet.

          2. Reconcile accounts receivable balance reported on the financial
    statement to all data sources, specifically:

                   a) Document and quantify all sources of accounts receivable
    financial data being used to prepare financial statements.

                  b) Provide a detailed listing of processes, procedures, and
     information systems that are used to consolidate and report forward the
     accounts receivable balances for all sources of financial data.

                   c) Develop procedures allowing Defense Finance and
    Accounting Service to identify and extract transaction level data supporting
    the reported amounts on consolidated reports to comply with Office of the
    Under Secretary of Defense (Comptroller) “Financial Improvement
    Initiative Business Rules,” dated June 23, 2004, and Office of the Inspector
    General memorandum, “Auditor Access for Financial Statement Audits,”
    dated January 24, 2005.

    Management Comments. The Defense Finance and Accounting Service
    Cleveland Site Director concurred in principle and stated that DFAS Cleveland
    Accounting Operation Branch defined and quantified all sources of accounts
    receivable financial data used to prepare the financial statements. The Director
    stated that DFAS Cleveland made available a portion of the detailed transactional
    support from STARS.

    The Director stated that the DoD business transformation effort (under the
    Business Enterprise Information System umbrella) will support the development
    of audit trails from source transactions to financial statement line items and that
    the Navy is transitioning from legacy accounting systems to Enterprise Resource


                                         15
           Planning systems. Therefore, DFAS suggested that this recommendation should
           be addressed to the Navy since the Navy plays an active role in ensuring that
           future accounting systems maintain proper records and provide complete audit
           trails. The Navy projects that transition to Navy Enterprise Resource Planning
           will be complete around FY 2011; however, the final completion date will be
           affected by the transition to the Business Enterprise Information System.

           Audit Response. The Director’s comments are not responsive and do not address
           the key topic of providing, reconciling, documenting, and quantifying all sources
           of accounts receivable financial data that support the Balance Sheet. DFAS never
           defined the transaction level data that supported the amount reported on the
           Department of the Navy Balance Sheet. DFAS Cleveland discussed summary
           level support for the Balance Sheet in its response rather than the transaction level
           support auditors discussed in the recommendation. Auditors were told the only
           transaction level data that was available was resident in STARS. When we
           requested a universe of transactions from the STARS system we were told it
           would not balance to the AR line on the March 31, 2005, Balance Sheet.
           Auditors did not receive the STARS data until after the established deadline.
           However, the data were voluminous and not in a format allowing auditors to
           readily perform adequate tests based upon the auditors’ testing and sampling
           methodology. DFAS needs to establish processes where all amounts reported on
           financial statements are auditable to detailed documents. We request that DFAS
           reconsider its position on developing a methodology to obtain a universe of
           accounts receivable transactions that supports the AR amounts reported on the
           Balance Sheet, and provide comments on the final report.

Other Matters of Interest

           Auditors were informed that the data extracts we requested were available on
           January 24, 2006, after the deadline had lapsed. Because the information
           requested for the universe was “as of March 31, 2005,” it was almost a year old
           when it was available. We decided to note the availability of the data but not
           perform further audit work in the area. According to the Project Design
           Document 6 from NAVSISA, “the requested accounts receivable information in
           the desired format are not provided on a routine basis to the customer.” In other
           words, they do not perform this type of query or extract this information from the
           system for their customer. They also indicated a single “query” for all data is not
           feasible because of the significant volume of data. According to the Project
           Design Document provided by NAVSISA the “extracted data should reconcile to
           the related USSGL reported for the AR for period ending March 31, 2005, and
           assist the DoD OIG with rendering an audit opinion on the Department of the
           Navy AR balances maintained in STARS-FL.” DFAS never assured auditors that
           the data extracted from the system would be a complete universe of receivable
           transactions. DFAS wanted to review the extracted data with auditors to ensure it
           contained the data we requested. Although it is not the responsibility of auditors
           to determine whether the queried data comprise a complete universe, we plan to
           perform additional work in this area in the future.
6
    Project Design Document was the title given to the document prepared by NAVSISA in response to our
    request for a STARS-FL query.


                                                    16
Appendix A. Scope and Methodology
   We defined our scope to be all transactions supporting the AR balance as reported
   on the Mid-Year FY 2005 NGF Financial Statements. We attempted to trace the
   flow of financial data down to the transaction level, obtain a universe of those
   transactions, and then reconcile that data to the amount shown on the financial
   statement. A reconciliation of the amounts would ensure the data reported on the
   financial statements accurately reflect the transactions that make up the balance.
   Notwithstanding the tracing and reconciling of AR balances, we requested a
   universe of AR transactions residing in the STARS-FL system as of March 31,
   2005, in order to perform transactional testing. In a financial statement audit, a
   transaction sample would be selected for testing to ensure compliance with
   guidance, proper classification, and support. DFAS Cleveland was unable to
   provide a timely universe for auditors to sample from and test. The inability to
   obtain a timely and reconciled universe of transactions was a scope limitation.
   Our steps to trace the funds from the Balance Sheet started with DDRS-AFS. We
   determined the following are sources of the AR line in DDRS-AFS:

       •   The SF-133, Report on Budget Execution,

       •   FACTS II, Federal Agencies Centralized Trial Balance System-
           Budgetary,

       •   Treasury Report On Receivables (TROR),

       •   DDRS Beginning Balance amounts, and

       •   Journal Vouchers (JVs).

   The scope of our audit was limited to STARS-FL, DDRS-AFS and the TROR.
   We were unable to follow the flow of funds because of numerous adjustments that
   were not traceable. We were not able to verify the source of the TROR data since
   the hardcopy documents used to prepare the TROR were not provided. Tests of
   compliance with guidance, classifications and support were to be performed on a
   sample pulled from the universe of transactions. We were not provided a timely
   universe of transactions from which to select a sample. We performed this audit
   from May 2005 through April 2006 in accordance with generally accepted
   government auditing standards.

   Use of Computer-Processed Data. DFAS Cleveland used DDRS-AFS to
   consolidate and summarize financial information recorded in various field-level
   systems. We did not evaluate the financial information reported to DDRS-AFS,
   nor did we evaluate the general or application controls over DDRS-AFS. We
   concluded that the data were sufficiently reliable to meet the audit objective. Not
   evaluating the controls did not affect the results of the audit.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Financial Management high-risk area.



                                       17
Prior Coverage
    No prior audit coverage has been conducted on receivables, reimbursables, and
    collections processed by DFAS during the last 5 years. However, DFAS Internal
    Review performed a review of the Department of the Navy AR line from
    March 2005 through September 2005. The review objective was to determine
    whether DFAS Navy Accounting Services complied with the Concept of
    Operations for Managing Accounts Receivable, issued in August 2003. The
    review found that DFAS Navy Accounting Services did not properly implement
    the DFAS Concept of Operations for Managing Accounts Receivable and that the
    DFAS Navy Accounting Services did not develop and implement adequate
    internal controls related to the Concept of Operations for Managing Accounts
    Receivable.




                                      18
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Finance and Accounting Service Arlington
   Director, Defense Finance and Accounting Service Cleveland
Director, Defense Contract Audit Agency
Inspector General, Defense Intelligence Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency
Director, National Security Agency
Director, Defense System Management College

Non-Defense Federal Organization
Office of Management and Budget




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        20
Defense Finance and Accounting Service
Cleveland Comments




                      21
Final Report
 Reference




Revised




Revised




               22
23
24
25
26
27
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Raymond D. Kidd
Edward A. Blair
Kimberly L. Misener
Catherine Bird
Chin-feng C. Herrod
